                                                             IG-00-034




AUDIT
                                 FOREIGN NATIONAL VISITORS
REPORT                                AT NASA CENTERS

                                        May 12, 2000




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at (202)
358-1232, or visit http://www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential, upon request,
to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

CNSI            Classified National Security Information
FBI             Federal Bureau of Investigation
NAC             National Agency Check
NCRS            Name Check Request System
NPD             NASA Policy Directive
NPG             NASA Procedures and Guidelines
OIG             Office of Inspector General
W                                                                                   May 12, 2000




TO:         A/Administrator

FROM:       W/Inspector General

SUBJECT: INFORMATION: Foreign National Visitors at NASA Centers
         Report Number IG-00-034


The NASA Office of Inspector General has completed an audit of Foreign National Visitors at NASA
Centers. We found that controls are in place over access to information by foreign national visitors.
However, controls over access to NASA Centers by foreign national visitors need to be strengthened
and uniformly applied on an Agency-wide basis. Controls over access by foreign national visitors
varied among Ames, Goddard, Johnson, and Langley. Disparities among the four Centers related to (1)
which foreign nationals were controlled, (2) the types of Government records checks made, (3) how
visitors were escorted once on-site, and (4) how foreign national visitors were badged. The Agency
also lacks a foreign national visitor management information system. Improvements are needed to
ensure that NASA Centers and information are adequately protected against unauthorized access by
foreign national visitors.

Background

NASA has a responsibility under the National Aeronautics and Space Act of 1958 to cooperate with
other nations in the conduct of its activities. NASA also has responsibility for protecting national
security interests, preserving the United States as a leader in aeronautics, space science, and
technology, and helping to ensure the economic health of the nation. NASA hosts foreign national
visitors for numerous reasons including attendance at meetings or conferences, intermittent or regular
work on a program related to an international agreement, the conduct of scientific research under a
cooperative educational program, or employment for a support contractor. As of April 1999, NASA
had approximately 1,383 foreign national visitors at 11 Centers.

The NASA Office of Management Systems is responsible for NASA-wide security. The NASA Office
of External Relations is responsible for Agency international relations, including approval policies for
foreign national visits.
                                                                                                            2


Recommendations, Management's Response, and Evaluation of Response

We recommended that the Associate Administrator for External Relations revise the definition of a
foreign national in NASA policy guidance to ensure controls are in effect at NASA Centers for visitors
that are not U.S. citizens. In addition, the Associate Administrator for Management
Systems should revise existing policy to establish NASA-wide requirements and procedures for
obtaining National Agency Checks1 and for escorting foreign visitors. Further, the Associate
Administrator for Management Systems should establish a NASA-wide policy for badging foreign
nationals. We also recommended that the Associate Administrator for External Relations and the
Associate Administrator for Management Systems should jointly develop and implement a NASA-wide
management information system to support the foreign national visitor program.

Management concurred with each recommendation and planned responsive corrective actions.
Management has agreed to revise applicable Agency policies to (1) revise the definition of a foreign
national, (2) clearly define National Agency Check requirements and procedures,
(3) define procedures for escorting foreign national visitors, and (4) provide a standard badging scheme.
Management is also working to obtain funding for an Agency-wide management information system to
support the foreign visits program. Details on the status of the recommendations are in the
recommendations section of the report.


[Original signed by]

Roberta L. Gross

Enclosure
Final Report on Audit of Foreign National Visitors at NASA Centers




1
 A National Agency Check consists of a records check with the Federal Bureau of Investigation (FBI), Department of
State, Immigration and Naturalization Service, and Central Intelligence Agency to determine whether an agency’s
records contain any information on a specified individual’s involvement in criminal or intelligence gathering
activities.
           FINAL REPORT
AUDIT OF FOREIGN NATIONAL VISITORS
          AT NASA CENTERS
W                                                                        May 12, 2000




TO:              I/Associate Administrator for External Relations
                 J/Associate Administrator for Management Systems

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on the Audit of Foreign National Visitors at NASA Centers
                 Assignment Number A9903601
                 Report Number IG-00-034


The subject final report is provided for your information and use. Our evaluation of your response is
incorporated into the body of the report. The corrective actions planned for the recommendations
are responsive. The recommendations will remain open for reporting purposes until agreed to
corrective actions are completed. Please notify us when action has been completed on the
recommendations, including the extent of testing performed to ensure corrective actions are effective.

If you have questions concerning this report, please contact Mr. Kevin J. Carson, Program Director,
Safety and Technology Audits, at (301) 286-0498, or Mr. William A. Garay, Auditor-in-Charge, at
(301) 286-9076. We appreciate the courtesies extended to the audit staff. The final report
distribution is in Appendix D.

[Original signed by]

Russell A. Rau

Enclosure
                                                      2




cc:

B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
JS/Director, Security Management Office
M/Associate Administrator for Space Flight
R/Associate Administrator for Aero-Space Technology
Y/Associate Administrator for Earth Science
ARC/D/Director, Ames Research Center
GSFC/100/Director, Goddard Space Flight Center
JSC/AA/Director, Lyndon B. Johnson Space Center
LaRC/A/Director, Langley Research Center
                                  3

bcc:
IM/Audit Liaison Representative
JS/Audit Liaison Representative
W/K. Carson
   W. Garay
  D. Choma
                             NASA Office of Inspector General

IG-00-034                                                                                      May 12, 2000
 A9903601
                      Foreign National Visitors at NASA Centers

Introduction

The NASA Office of Inspector General (OIG) has completed an audit of foreign national visitors at
NASA Centers. The audit was conducted as part of the overall audit of Management and
Administration of International Agreements at NASA.2 The audit objectives discussed in this report
were to determine whether the Centers we visited:

    •   obtained appropriate approvals for foreign personnel with access to NASA Centers, and

    •   established controls over release of information.

At the four Centers we visited,3 we identified an opportunity for NASA to strengthen its controls
over the access of foreign national visitors working at Agency Centers in support of the aeronautical
and space activities of the United States. Appendix A contains further details on the audit
objectives, scope, and methodology.

Results in Brief

NASA has established export policies and procedures for approving the release of information to
foreign nationals. These controls were in place at Ames Research Center (Ames); Goddard Space
Flight Center (Goddard); Johnson Space Center (Johnson); and Langley Research Center (Langley);
and included approvals or reviews by Center Export and Security Officials and the Office of External
Relations.

Controls over access to NASA Centers by foreign national visitors need to be strengthened and
uniformly applied on an Agency-wide basis. Controls over access by foreign national visitors varied
among Ames, Goddard, Johnson, and Langley. Disparities among the four Centers related to (1)
which foreign nationals were controlled, (2) the types of Government records checks made, (3) how
visitors were escorted once on-site, and (4) how foreign national visitors were badged. The Agency
also lacks a foreign national visitor management information system. Improvements are needed to


2
  Results are in Audit Report IG-00-004, “Management and Administration of International Agreements at
NASA,” January 14, 2000 (see Appendix B for details).
3
  The Centers visited during the audit were Ames Research Center; Goddard Space Flight Center; Johnson Space
Center; and Langley Research Center.
ensure that NASA Centers and information are adequately protected against unauthorized access by
foreign national visitors.
Background

The National Aeronautics and Space Act of 1958 (Space Act), as amended, includes an objective
that NASA conduct its activities to contribute to the preservation of the United States as a leader in
aeronautics, space science, and technology. The Space Act also states that NASA shall conduct its
activities with an objective of cooperating with other nations. This cooperation has involved hosting
foreign national visitors at its installations. The Space Act provides for the NASA Administrator to
establish the necessary security requirements, restrictions, and safeguards for hosting foreign national
visitors to protect the national security interests of the United States.

The Defense Security Service4 reported in its 1998 publication, “Technology Collection Trends in
the U.S. Defense Industry,” that 37 countries were associated with seeking U.S. technologies in
1997. The report states that the second most frequently used technique for collecting technological
information was visits to U.S. facilities by foreign nationals and that inappropriate conduct during
visits was the second most frequently reported method of operation. The report includes indicators
of suspicious activities by foreign nationals including unescorted visitors wandering around facilities.

The Agency's responsibility to protect national security interests is broader than the traditional notion
that national security includes only classified information. NASA is the steward of other valuable
information that although unclassified is critical and valuable to the national security. The economic
health of the nation is vital to our security as recognized by the President and the Congress with the
passing of the Economic Espionage Act of 1996.5 NASA must take prudent measures to protect
not only national security classified information, but also unclassified sensitive, critical, and valuable
data that should not be released to unauthorized persons, organizations, or governments.

NASA policies and procedures provide for the approval of foreign national visitors to Centers for
numerous reasons including attendance at meetings or conferences, intermittent or regular work on a
program related to a NASA international agreement, the conduct of scientific research under a
cooperative educational program, or employment for a support contractor. Visits may be short-term
(1 to 30 calendar days), or long-term (more than 30 days). The host Center’s International Visits
Coordinator, under the authority of the Center Director, approves the visits. Visits by foreign
nationals or representatives from countries identified on NASA’s




4
  The Defense Security Service provides security services to the Department of Defense and is under the
direction, authority, and control of the Assistant Secretary of Defense for Command, Control, Communications
and Intelligence.
5
  The Economic Espionage Act of 1996 provides for the protection of proprietary economic information. The Act
contains provisions for economic espionage and the theft of trade secrets as well as criminal and civil penalties
for its violation.


                                                        2
List of Designated Areas6 require approval by the NASA Office of External Relations. As of April
1999,7 NASA had approximately 1,3838 foreign national visitors at 11 Center locations.

The Associate Administrator for External Relations is responsible for developing and implementing
international policies and for directing the Agency’s international relations. The Associate
Administrator for Management Systems is responsible for providing executive and functional
leadership, oversight, guidance, coordination, and advocacy for various management systems,
processes, functions, and activities including Agency-wide security.

Controls Over Foreign National Visitors
Finding. Existing controls over access to NASA Centers by foreign national visitors require
strengthening. Specifically, (1) NASA policies contain conflicting definitions of what constitutes a
foreign national, (2) procedures for visitor records checks were inconsistent, (3) requirements for
escorting foreign national visitors were not specific and varied widely among the Centers visited, (4)
foreign national badging procedures varied by Center visited, and (5) an Agency-wide management
information system with data on foreign nationals does not exist. Controls are deficient because
Agency policy governing the access of foreign national visitors to NASA Centers is insufficiently
detailed and not uniformly applied. Consequently, the Agency has assumed a greater risk than
necessary that foreign national visitors or foreign representatives working at NASA Centers could
compromise NASA information.

NASA Requirements Governing Foreign National Visitors

Several NASA-wide policies address foreign national visitors and security and apply to foreign
national visitors to NASA Centers. They do not apply to foreign nationals working at NASA
contractors who do not access NASA Centers. NASA Policy Directive (NPD) 1371.5,
“Coordination and Authorization of Access by Foreign Nationals and Foreign Representatives to
NASA,” April 19, 1999, provides NASA policy for facilitating, authorizing, and controlling all types
of foreign visits and other access by foreign nationals and foreign representatives.9 The policy states
that the Agency will process all types of foreign visit requests in a timely manner to enable NASA to

6
  NASA Procedures and Guidelines (NPG) 1371.2, “Procedures and Guidelines for Processing Requests for
Access to NASA by Foreign Nationals or Representatives,” April 19, 1999, defines designated areas as those for
which (1) the United States has no diplomatic relations, (2) the State Department has determined support
terrorism, (3) are under sanction or embargo by the United States, or (4) are a country of missile technology
concern.
7
  More current data on foreign national visitors was not readily obtainable. See the “Finding” section of this
report under the subsection entitled “Management Information System” for more information.
8
  The number includes foreign nationals from both nondesignated and designated areas. This number does not
include an additional 480 permanent resident aliens.
9
  NASA Policy Directive (NPD) 1371.5, “Coordination and Authorization of Access by Foreign Nationals and
Foreign Representatives to NASA,” April 19, 1999, states that requests for access by or on behalf of foreign
national members of the public information media to a NASA Center must be forwarded to the Center’s Public
Affairs Office for coordination, as appropriate, with NASA Headquarters in accordance with 14 Code of Federal
Regulations, Part 1213.


                                                      3
fulfill its responsibilities for facilitating visits that support U.S. national interests and/or NASA’s
international program interests and operational requirements. At the same time, the Agency will
screen all foreign visit requests to determine whether they conform with Agency and national policies,
including U.S. national security and export control regulations. Consistent with Agency standard
procedures and guidelines, NASA Headquarters and each NASA Center is responsible for directly
receiving, coordinating, and deciding requests for visits by foreign nationals to its Centers, except for
requests by personnel in certain official foreign government positions and by representatives of
countries identified in the List of Designated Areas. The Agency should forward all such requests
promptly to the Office of External Relations, NASA Headquarters. NASA Procedures and
Guidelines (NPG) 1371.2, “Procedures and Guidelines for Processing Requests for Access to
NASA by Foreign Nationals or Representatives,” April 19, 1999, provides guidance on the
implementation of NPD 1371.5.

NPD 1600.2A, “NASA Security Policy,” April 20, 1998, states that the Associate Administrator
for Management Systems is responsible for the overall management of the NASA Security Program.
NPG 1620.1, “Security Procedures and Guidelines,” November 18, 1999, provides guidelines and
procedures to assist NASA Centers in complying with the minimum standards, requirements, and
specifications for the protection of personnel, sensitive and unclassified/classified information,
material, facilities, and resources in the possession of NASA, as well as the basic information
regarding the assignment of management responsibilities. The NPG also assists NASA Center
management in establishing local procedures to meet these standards and requirements. NPG
1620.1 does not address controls over foreign nationals with the exception of requirements related
to obtaining approval authority for access to classified information. NPG 1620.1 instead references
NPG 1371.2 by stating “foreign nationals are covered by other instructions or directives requiring
equivalent screening requirements.”

Foreign National Definitions

The two NASA offices assigned responsibility for foreign activities use conflicting definitions of a
foreign national. The Office of Management Systems and the Office of External Relations are
responsible for assessing and addressing the risks posed by foreign nationals granted access to
NASA Centers. Within the Office of Management Systems, the Security Management Office is
responsible for establishing Agency-wide security policy and procedures, including procedures for
controlling foreign nationals with approved access. The Office of External Relations is responsible
for establishing foreign relations policies and procedures, including procedures for approving foreign
nationals’ access.

NPG 1620.1 provides the Director, NASA Security Management Office,with the approval authority
for foreign nationals to have access to U.S. classified national security information (CNSI)10 or to
attend CNSI meetings or functions that are classified or unclassified sessions.
10
  Executive Order 12958, “Classified National Security Information,” April 17, 1995, defines CNSI as information
that has been determined to require protection against unauthorized disclosure and is marked to indicate its
classified status when in documentary form.


                                                        4
NPG 1620.1 defines a foreign national as “any person who is not a citizen of the United States.”
The NPG does not address the subject of foreign national access to NASA Centers and instead
references NPG 1371.2.

NPG 1371.2 defines a foreign national as “any person who is not a citizen or permanent resident
alien11 of the United States.” NPG 1371.2 establishes approval controls over foreign nationals
including when and where they will be allowed access to NASA Centers. The NPG 1371.2
exemption of permanent resident aliens, who are not U.S. citizens, directly conflicts with the NASA
Security Management Office definition provided in NPG 1620.1. Additionally, local guidance at
Ames that implements NPG 1371.2 further exempts refugees by defining a foreign national as “any
person who is not a citizen of the United States, not including permanent resident aliens, or persons
admitted with refugee status to the United States.” Excluding permanent resident aliens and refugees
results in a portion of the foreign national population at NASA Centers that is not subjected to
access approval controls.

The definition the Office of External Relations uses in NPG 1371.2 does not consider that permanent
resident aliens or refugees are not U.S. citizens, may never become citizens, and at any time may
return to their countries of origin. Security personnel at two of the four NASA Centers we visited
expressed concern about the lack of controls over permanent resident aliens. The inconsistent
definitions used in the Agency’s policy documents could lead to confusion over which foreign
national visitors are to be controlled, potentially resulting in increased security risks. In comparison
to the Agency’s conflicting definitions, the Department of Energy (Department of Energy Notice
142.1, “Unclassified Foreign Visits and Assignments”) defines a foreign national as “any person who
is not a U.S. citizen, including permanent resident aliens.” NASA’s definition of a foreign national in
NPG 1371.2 should be revised to ensure consistency with the definition provided in NPG 1620.1.

National Agency Checks

Procedures at each of the four Centers we reviewed also varied with regard to performing National
Agency Checks (NAC’s) on foreign national visitors. A NAC consists of a records check with the
Federal Bureau of Investigation (FBI), Department of State, Immigration and Naturalization Service,
Central Intelligence Agency, and the Defense Security Service to determine whether an agency’s
records contain any information on a specified individual’s involvement in criminal or intelligence
gathering activities. Completion of a NAC typically takes from 30 to 60 days. A favorable NAC
does not mean that the foreign national is not a criminal or intelligence operative, but only that the
agencies checked do not have a record of any such activities. Current NASA guidance in NPG
1371.2 requires a NAC only if the visitor will be placed on an accreditation list.12 Although NAC’s
are not required for all foreign national visitors, NAC’s represent an appropriate risk management
measure to assist management as part of the approval process for foreign national visitors. As such,

11
  A permanent resident alien is a foreign national lawfully admitted to the United States for permanent residence.
12
  Accreditation refers to the establishment by a NASA Center of a list of foreign nationals, regardless of
nationality, who are approved for repeat visits to that Center for the purpose of implementing an "agreed to"
NASA international cooperative or reimbursable program or project.


                                                        5
their use should be uniformly applied across the Agency. Each of the four Centers had different
procedures concerning the request for a NAC, when it would be done, and when it would be
updated. The differences are illustrated below.

•       Ames obtained NAC’s for visitors staying 90 days or longer or if specifically requested by
        the sponsor for shorter visits. (A favorable NAC at Ames negates the need for an escort for
        the visitor while on the Ames facility.) Goddard obtained NAC’s for all visits in excess of 30
        days. Johnson obtained NAC’s for all visits in excess of 90 days and for all visitors from
        “Designated Areas,” regardless of the length of the visit. Langley obtained NAC’s for all
        foreign national visitors, regardless of the duration of their visits.

•       Ames, Johnson, and Langley initiate NAC’s once the official request is received from the
        NASA sponsor for a visit by a foreign national. Goddard, however, initiates a NAC only
        after a foreign national’s visit is approved and the individual arrives at the Center.

•       Ames updates the NAC for an individual foreign national visitor every 10 years. Goddard
        performs updates every 3 years, and Johnson and Langley update every 5 years.

**Deliberative process information omitted.**




The differences in record checks procedures at the Centers result from a lack of an Agency-wide
requirement and from incomplete and inaccurate guidance. The NPG states:

                 A satisfactory National Agency Check (NAC) must be completed for all
                 individuals on an accreditation list. The International Visits Coordinator will
                 arrange for entry of the data into the Name Check Request System (NCRS)
                 database.13 Data entry into the NCRS will trigger National Agency Checks
                 (NAC’s) by appropriate U.S. investigation agencies. [Emphasis added.]


First, NPG 1371.2 does not require a NAC unless a Center wants to accredit a foreign national.
Second, the statement that data entry into the NCRS will trigger NAC's "by appropriate U.S.
investigation agencies" is not accurate. Specifically, data entry to the NCRS initiates an FBI records
check only and does not initiate records checks with the four other Federal agencies.14 However,
the Centers are unaware that only an FBI records check will be initiated. For example, we found
that Johnson did not perform complete NAC’s (records checks with the FBI and the four other
Federal agencies) for foreign national visitors. Data on foreign nationals at Johnson was entered into
the NCRS, which initiates only an FBI database query. Johnson did not send requests to the other
four Federal agencies to determine whether their records contained any information on the specified
13
  **Deliberative process information omitted.**
14
  The agencies are the Department of State, Immigration and Naturalization Service, Central Intelligence Agency,
and the Defense Security Service.


                                                       6
individual. As a result, the NAC’s Johnson performed were not complete. NPG 1371.2 should be
revised to reflect that records checks with the other four Federal agencies must be submitted
separately to each of the agencies.

The guidance on NAC’s also does not explicitly address which foreign national visitors require a
NAC, when it will be performed, and when it will be updated. **Deliberative process information
omitted.**




Escorting Requirements

The approval for a foreign national’s access to NASA Centers provides a specified time during
which access is allowed and generally identifies whether the visitor is required to be escorted.
Although mentioned as part of the access approval, no NASA-wide policy or procedure specifies
which foreign nationals are to be escorted, what escorting entails, and the responsibilities of the
designated escort. Consequently, each Center has independently established separate escorting
policies and procedures, which has subsequently resulted in different escort requirements at each of
the four Centers visited. As a result, the escort process for foreign national visitors differed,
depending on the particular Center, and at times, foreign national visitors were not escorted.
Examples of the varied processes follow.

•   Escorting Qualifications. The sponsor of a foreign national visitor is typically the NASA civil
    servant employee who requests approval for the visit of the foreign national. The sponsor also
    ensures that the visit is in NASA’s best interests and is consistent with Agency and national
    policies. None of the four Centers required the foreign nationals’ sponsor to be the escort.
    However, Goddard and Langley required that the designated escort be a U.S. citizen. Ames
    and Johnson allowed foreign national visitors to be escorted by foreign nationals who were
    permanent resident aliens.

•   Escorting Requirements. At Goddard and Johnson, local policies required an escort to
    accompany the foreign national visitor “at all times.” At Ames and Langley, an escort was
    required to accompany the visitors only to the entrance of the building where their assigned
    workplace was located. The visitors were unescorted while inside the building.

•   Escorting Observations. Although Goddard and Johnson required escorts to accompany the
    visitor at all times, we observed that several foreign nationals were not escorted. On one
    occasion, we identified a foreign national from Yugoslavia and another from Taiwan who were to
    be escorted at all times while at Goddard. Their escort met them at the Center’s main entrance,
    and they proceeded to the Goddard East Campus security gate in three separate vehicles. Once
    admitted through security to the East Campus, the escort and the two foreign nationals each
    drove to separate buildings in their personal vehicles. We then observed each of the foreign
    nationals proceed into the building unescorted. We also determined that the Yugoslavian foreign



                                                  7
    national’s access approval had expired more than a month before this visit to Goddard. On
    another occasion at Goddard, we observed a foreign national contractor employee from China
    being escorted onto the Center by an employee with the same contractor, without the knowledge
    of either the NASA sponsor or the approved NASA escort.

    At Johnson, we identified five foreign nationals (Canadian, Colombian, Indonesian, Russian, and
    South Korean) whose approvals for access stated that they were to be escorted. However,
    none of the five possessed “escort required” badges and, in fact, were not being escorted. The
    NASA sponsors stated they were not aware that these visitors required escorting. We observed
    a sixth foreign national from Russia being escorted, but the foreign national possessed a
    temporary vehicle pass that allowed unescorted access to the Center. When asked about the
    vehicle pass, the individual stated that although she drove unescorted on the Center campus, she
    waited to be escorted inside the building.

•   Other Escort Disparities. Upon receipt of a favorable NAC, Ames, Johnson, and Langley all
    discontinued the escort of foreign nationals from countries on NASA’s List of Designated Areas.
    Goddard, however, requires that foreign nationals from the listed countries continue to be
    escorted even upon receipt of a favorable NAC. Ames, Johnson, and Langley did not require
    escorting of long-term visitors once a NAC was completed.

    At Goddard, foreign nationals who arrived before their country was added to NASA’s current
    List of Designated Areas were not escorted, while arrivals from the same country were escorted
    after the country was added to the list.

    Goddard required escorting of foreign nationals from Russia and the former Republics of the
    Soviet Union. Ames, Johnson, and Langley did not require escorting of visitors from these
    countries.

Without NASA-wide guidance on escorting, Centers are implementing various controls for the same
risks. The controls may not adequately manage NASA’s risks or may subject individuals from
certain countries to unwarranted additional controls. During the audit, a foreign national visitor at
Goddard questioned why he was escorted, when another visitor from the same country also at
Goddard was not escorted. A similar situation occurred at Langley when one foreign national also
questioned why he was escorted when his fellow countrymen at other NASA Centers were not.
The Office of Management Systems needs to adopt NASA-wide requirements and guidelines for
escorting to ensure that the activities of foreign national visitors are appropriately and uniformly
monitored while visiting or working at NASA Centers.

Badging Procedures

Foreign nationals are not uniformly badged at each of the four Centers visited. NPD 1620.2,
“NASA Badging System,” February 9, 1998, states that a uniform badging system will be used
throughout NASA to ensure that physical access to NASA’s Centers is granted only to authorized


                                                  8
personnel. Although the NPD does not specifically address badging for foreign national visitors, it
does grant Center Directors authority for “issuance of NASA badges to other individuals when such
issuance is deemed to be in the best interest of the Agency.”

There was no uniformity among Ames, Goddard, Johnson, and Langley as to who received badges,
the type of badge received,15 or the unique identifiers on the badge.16 For example, Langley issued
picture badges to all foreign national visitors regardless of the length of stay. In contrast, Ames,
Goddard, and Johnson issued picture badges for long-term visitors (more than 90 days) and non-
picture badges for short-term visitors.

We identified other differences such as the Langley picture badge clearly identified on the front of the
badge that an individual was a foreign national visitor or contractor, did or did not require escorting,
and the building access allowed. At Ames, picture badges for foreign nationals were different colors,
depending on whether the visitor was from a designated or non-designated area. Ames also
included building access information on the back of the badge. Johnson’s picture badges were all
the same color and identified building access on the front of the badge. Johnson did not differentiate
whether a visitor or employee was from a designated or non-designated country. Goddard’s picture
badges did not include building access information.

Without uniformity in badging, recognition of foreign nationals and compliance with the assorted
access restrictions that apply are more difficult for NASA personnel. In addition, the use of non-
picture badges makes the potential for alteration of the badge easier, thus increasing the opportunity
for foreign nationals to gain access to areas or information for which they are not authorized. The
current NASA policy for badging should be revised to provide for uniform, Agency-wide
requirements in badging foreign nationals.

Management Information System

NASA does not have an Agency-wide management information system to support its foreign
national visitor program. NPD 2800.1, “Managing Information Technology,” March 23, 1998,
states that NASA policy is to use information technology to accomplish its missions and programs
efficiently, effectively, and securely. Each NASA Center and the NASA Headquarters Office of
External Relations separately maintain systems containing information on foreign national visitors. The
Office of External Relations’ system includes only Agency-wide information on foreign nationals from
countries on NASA’s List of Designated Areas, while each Center maintains information on all
foreign nationals at the Center. Although providing a useful tool at a particular Center, the systems
are independent of one another, lack interconnectivity, operate in different computer media, and
contain different types of data structured in incompatible formats.



15
 The badge may contain a picture and may be permanent or temporary.
16
 Unique identifier refers to whether the badge identifies that the visitor is a foreign national or contractor,
whether escorting is required, and what buildings can be accessed.


                                                          9
These differences exist because neither the NASA Office of Management Systems nor the Office of
External Relations has established a NASA-wide foreign national visitor’s management information
system or a requirement for the system. Consequently, each Center designed a system to meet its
individual administrative needs, while the Office of External Relations established a system that
captures only information submitted by the Centers on foreign nationals from countries on NASA’s
List of Designated Areas.

The lack of the systems compatibility results in NASA Headquarters management not having
Agency-wide visibility over the volume, location, origin, or activities of foreign national visitors. This
lack of visibility was clearly evident in March 1999, when the Associate Administrator for External
Relations requested Agency-wide information on foreign national visitors. The information took
about 2 months to obtain from each Center because a centralized system did not exist.

The lack of an Agency-wide system may also be increasing NASA’s costs and reducing the
effectiveness and efficiency of the foreign national visitor program. For example, as discussed
earlier, individual Centers are obtaining NAC’s on visitors. Because an Agency-wide management
information systems does not exist, a Center processing a visit request may not be aware that a
particular foreign national has recently been to another Center that has already completed a NAC.
Without central availability of this information, a Center may request another NAC that would result
not only in incurring additional costs, but also in a potential delay in visitor access approval. In
addition, the Center processing the current visit request may not have the benefit of information the
previously visited Center may have about the foreign national. Such information may be important
when making the decision to approve the visit and determining the type of access to provide.

In early 1999, the Office of Management Systems and the Office of External Relations jointly began
a study on a potential Agency-wide management information system that would support both NASA
security and visit approval information requirements. The system has been defined to a point that is
acceptable to both offices. However, the Agency has not approved funding. The Agency should
continue to pursue implementation of a NASA-wide system.

Potential Risks from Foreign National Visitor Program

While the Space Act requires that NASA conduct its activities with an objective of cooperating with
other nations, including hosting foreign national visitors at NASA installations, such activities must be
carried out in a manner that will protect national security. Because the existing controls over foreign
national visitors’ access to NASA Centers are either inadequate or not uniformly applied, the
Agency has assumed a greater risk than necessary of releasing sensitive NASA information to
foreign national visitors or foreign representatives working at NASA installations.

**Deliberative process information omitted.**


The Agency should take appropriate actions to strengthen controls over foreign national visitor
access to NASA Centers. The controls should be sufficiently detailed, applied on a NASA-wide



                                                    10
basis, and provide assurance that foreign nationals are uniformly monitored throughout the Agency.
Strengthened controls will further ensure that management and oversight of foreign national visitors is
conducted in accordance with the Space Act and applicable NASA policies and procedures and
that technology and information are adequately protected.

Recommendations, Management's Response, and Evaluation of Response

1. The Associate Administrator for External Relations should revise the definition of a foreign national in
NPG 1371.2 to be consistent with the definition in NPG 1620.1 to ensure controls are in effect at NASA
Centers for visitors that are not U.S. citizens.


Management's Response.    Concur. NPG 1371.2 will be revised to define "foreign national" as anyone
who is not a citizen of the United States. The complete text of management's response is in
Appendix C.

Evaluation of Management's Response. Management's planned actions are responsive to the
recommendation. The recommendation is resolved, but will remain undispositioned and open for
reporting purposes until corrective actions are completed.

The Associate Administrator for Management Systems should:

    2. Revise NPG 1620.1 to specify:

        •    A NASA-wide requirement and procedures for obtaining a National Agency
             Check and indices check to identify which foreign national visitors require both
             types of checks, when to submit them, and when to update them.

        •    That data entry to the Name Check Request System initiates a records check
             with the FBI only and that separate records checks must also be made with the
             Department of State, Immigration and Naturalization Service, Central
             Intelligence Agency, and the Defense Security Service.

        •   NASA-wide procedures for escorting visitors to include identifying which foreign
            nationals will be escorted, who can be an escort, the responsibility of the escort,
            and what escorting entails.
Management's Response. Concur. NPG 1620.1 will be revised to define NAC requirements and
procedures, clarify the use of the NCRS and the elements of the NAC for foreign national visitors,
and define standard Agency-wide policy and procedures for escorting visitors. Management did not
see a need to obtain information from the Defense Security Service as part of a NAC and
questioned the need for a secondary local FBI records check (see Appendix C).

                               Management's planned actions are responsive to the
Evaluation of Management's Response.
recommendation. Although we observed some NASA Centers obtaining Defense Security Service



                                                       11
information as part of the NAC process, we agree that this procedure would generally not be
beneficial. ** Deliberative process information omitted.** The recommendation is resolved, but will
remain undispositioned and open for reporting purposes until corrective actions are completed.

    3. Revise NPD 1620.2 to specify a NASA-wide policy for badging foreign nationals.

Management's Response.    Concur. NPD 1620.2 will be revised to specify a standard badge scheme
to identify foreign nationals (see Appendix C).

Evaluation of Management's Response.  Management's planned actions are responsive to the
recommendation. However, management should consider providing all foreign nationals with picture
badges regardless of the length of a visit. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are completed.

4. The Associate Administrator for Management Systems, in conjunction with the
Associate Administrator for External Relations, should develop and implement a NASA-
wide management information system to support the foreign national visitor program.

Management's Response.   Concur. The Associate Administrator for External Relations, in conjunction
with the Associate Administrator for Management Systems, is working with the Associate
Administrator for Headquarters Operations to obtain funding for this Agency-wide system, which is
vital to the future modernization of the NASA foreign visitor program (see Appendix C).

Evaluation of Management's Response. Management's planned actions are responsive to the
recommendation. The recommendation is resolved, but will remain undispositioned and open for
reporting purposes until corrective actions are completed.




                                                   12
                Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective of the audit was to determine whether NASA’s management of international
agreements was adequate. The specific objective of the first report on this audit was to determine
whether international agreements were appropriately executed and monitored. Details on our
findings and recommendations are in Appendix B.

Our objectives related to this report were to determine whether the Centers we visited:

    •   obtained appropriate approvals for foreign personnel with access to NASA Centers, and

    •   established controls over release of information.

Scope and Methodology

We obtained an overall understanding of how access by foreign national visitors to NASA Centers
and information is administered at both NASA Headquarters and the Center levels. We reviewed
policies, procedures, and appropriate records for foreign nationals who had approved access to
Ames, Goddard, Johnson, and Langley in 1999. We relied on automated data and information
provided by NASA to complete our audit objectives and performed no additional verification of the
automated systems that produced the data. We did not review controls over access to NASA
information by foreign nationals working on projects at off-site locations. During the audit, we:

•   Identified and reviewed NASA’s policies and procedures related to visits by foreign nationals
    and release of information.

•   Interviewed personnel in the NASA Headquarters Office of External Relations and NASA
    Security Management Office.

•   Interviewed the Chief Security Officer and/or appropriate staff at Ames, Goddard, Johnson, and
    Langley.

•   Interviewed the International Visits Coordinator and/or appropriate staff at Ames, Goddard,
    Johnson, and Langley.

•   Reviewed individual foreign national visit approval files, documents, and security plans at Ames,
    Goddard, Johnson, and Langley.

•   Observed foreign national escort practices at Ames, Goddard, Johnson, and Langley.

•   Discussed with NASA Headquarters and Center personnel escort requirements, NASA’s List
    of Designated Areas, access to sensitive and classified information, and export control
    approvals.
Appendix A

•   Obtained information on foreign national visit procedures at the Department of Energy.

Management Controls Reviewed

We reviewed the following management controls as part of the audit. The significant management
controls related to visits to NASA Centers by foreign nationals are contained in:

•   NASA Policy Directive (NPD) 1371.5, “Coordination and Authorization by Foreign Nationals
    and Foreign Representatives to NASA,” April 19, 1999.

•   NASA Procedures and Guidelines (NPG) 1371.2, “Procedures and Guidelines for Processing
    Requests for Access to NASA by Foreign Nationals or Representatives,” April 19, 1999.

•   NPD 1600.2A, “NASA Security Policy,” April 20, 1999.

•   Draft NPD 1600.2B, “NASA Security Policy,” November 30, 1999.

•   NPD 1620.2, “NASA Badging System,” February 9, 1998.

•   NPD 2110.1D, “Foreign Access to NASA Technology Transfer Materials,” January 20, 1998.

•   NASA Handbook 2410.9A, “NASA Automated Information Security Handbook,” June 1,
    1993.

•   “NASA’s Self-Assessment of International Technology Transfer and Export Control Practices,”
    October 8, 1999.

•   NASA Policy Pamphlet, “NASA Export Control Program,” November 1995 (revised October
    1998).

We also reviewed the appropriate management controls specific to foreign national visitor activities
at Ames, Goddard, Johnson, and Langley.

Management controls were not adequate to ensure visits to NASA Centers by foreign nationals are
properly controlled so that NASA information is adequately protected. Opportunities exist to
strengthen controls in this area by implementation of the report recommendations. Details are in the
finding section of the report.

Audit Field Work

We conducted field work from June 1999 through January 2000, at NASA Headquarters, Ames,
Goddard, Johnson, and Langley. We performed the audit in accordance with generally accepted
government auditing standards.




                                                  2
                    Appendix B. Summary of Prior Audit Coverage

“Management and Administration of International Agreements at NASA,” Report Number
IG-00-004, January 14, 2000. The Space Act permits NASA to enter into agreements with other
U.S. entities, state and local governments, institutions, and foreign governments to accomplish its
mission. The NASA Office of External Relations is responsible for developing and implementing
Agency international policies, including drafting, coordinating, negotiating, and maintaining records on
all international agreements and for ensuring that Agency programs are conducted in accordance with
Administration and Agency international policies. As of May 1999, NASA had about 3,200
nonreimbursable and 300 reimbursable international agreements. We found that controls are
generally adequate to ensure international agreements are appropriately executed and monitored.
However, documentation and information related to the international agreements were not complete
or accurate. As a result, the Agency is relying on incomplete and inaccurate information when
drafting new international agreements or responding to inquiries. In addition, the Agency has held a
deposit of about $200,000 from a foreign government corporation for more than 15 years for
launches of two satellites that never occurred. The Agency may not be entitled to the funds. We
recommended that NASA management establish controls to ensure the completeness and accuracy
of documentation and information in the international agreements library and database, promptly
review and disposition the funds in the foreign deposit account, and identify other reimbursable
accounts with no recent cost activity. Management concurred with each recommendation.




                                                   3
Appendix C. Management's Response




              4
    Appendix C




5
Appendix C




             6
    Appendix C




7
Appendix C




             8
                           Appendix D. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
I/Associate Administrator for External Relations
ID/Director, Assessments and Technology Division
IM/Director, Resources Management Office
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
JS/Director Security Management Office
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
P/Associate Administrator for Public Affairs
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
U/Associate Administrator for Life and Microgravity Sciences and Applications
Y/Associate Administrator for Earth Science
Z/Associate Administrator for Policy and Plans

NASA Centers

Director, Ames Research Center
Director, Dryden Flight Research Center
Director, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Director, Jet Propulsion Laboratory
Director, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
Director, Langley Research Center
Director, George C. Marshall Space Flight Center
Director, John C. Stennis Space Center




                                                9
Appendix D

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division,
 Office of Management and Budget
Associate Director, National Security and International Affairs Division, Defense Acquisition
 Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member - Congressional Committees and Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations House
Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                                 10
                  NASA Assistant Inspector General for Auditing
                                 Reader Survey
The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.

Report Title: Final Report on the Audit of Foreign National Visitors at NASA Centers

Report Number:                                        Report Date:


Circle the appropriate rating for the following statements.

                                                      Strongl                              Strongl
                                                         y      Agree   Neutra   Disagre   y         N/A
                                                       Agree              l         e      Disagre
                                                                                              e
1.   The report was clear, readable, and logically       5       4        3         2         1      N/A
     organized.
2.   The report was concise and to the point.            5       4        3         2         1      N/A
3.   We effectively communicated the audit               5       4        3         2         1      N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5       4        3         2         1      N/A
     support the finding(s) in a balanced and
     objective manner.


Overall, how would you rate the report?

      Excellent               Fair
      Very Good               Poor
      Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                   Media
       NASA Employee                         Public Interest
       Private Citizen                       Other:
       Government:                Federal:        State:       Local:


May we contact you about your comments?

Yes: __________                              No: __________

Name: ____________________________

Telephone: ________________________

Thank you for your cooperation.
Major Contributors to this Report

Kevin J. Carson, Program Director, Safety and Technology Audits

William A. Garay, Auditor-in-Charge

Diane R. Choma, Auditor

Iris Purcarey, Program Assistant

Nancy C. Cipolla, Report Process Manager
